           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ADMINISTRATIVE COSTS CLAIMED
    BY THE COLORADO DISABILITY
     DETERMINATION SERVICES

      April 2008   A-07-07-17136




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   April 14, 2008                                                            Refer To:

To:     Nancy A. Berryhill
        Regional Commissioner
         Denver

From:   Inspector General

Subject:Administrative
                     Costs Claimed by the Colorado Disability Determination Services
        (A-07-07-17136)


        OBJECTIVE
        Our objectives were to evaluate the Colorado Disability Determination Services
        (CO-DDS) internal controls over the accounting and reporting of administrative costs,
        determine whether costs claimed by the CO-DDS were allowable and properly allocated
        and funds were properly drawn, and assess limited areas of the general security
        controls environment. Our audit included the administrative costs claimed by the CO-
        DDS during Federal Fiscal Years (FY) 2005 and 2006.

        BACKGROUND
        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act (Act), provides benefits to wage earners and their families in the event the wage
        earner becomes disabled. The Supplemental Security Income (SSI) program,
        established under Title XVI of the Act, provides benefits to financially needy individuals
        who are aged, blind, and/or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies
        for the development of disability claims under the DI and SSI programs. Disability
        determinations under both DI and SSI are performed by Disability Determination
        Services (DDS) in each State, and other responsible jurisdictions. Such determinations
        are required to be performed in accordance with Federal law and underlying
        regulations. 1 In carrying out its obligation, each DDS is responsible for determining
        claimants’ disabilities and ensuring that adequate evidence is available to support its




        1
            42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - Nancy A. Berryhill

determinations. To assist in making proper disability determinations, each DDS is
authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system to pay for program expenditures. Funds drawn down must comply with
Federal regulations 2 and intergovernmental agreements entered into by Treasury and
States under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with the Office
of Management and Budget’s Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the FY, each DDS is required to
submit a State Agency Report of Obligations for SSA Disability Programs (SSA-4513) to
account for program disbursements and unliquidated obligations. 4 The SSA-4513
reports expenditures and unliquidated obligations for personnel service costs, medical
costs, indirect costs, and all other nonpersonnel costs. 5

The Office of Self Sufficiency is the CO-DDS’ parent agency. The CO-DDS is located in
Aurora, Colorado.

RESULTS OF REVIEW
Other than the areas discussed in this report, the CO-DDS had effective controls over
the accounting and reporting of administrative costs. Furthermore, the costs it claimed
during our audit period were allowable, properly allocated, and funds were properly
drawn. However, the majority of the CO-DDS’ indirect costs charged to SSA during our
audit period were based on a cost allocation plan (CAP) that has not been approved by
the Division of Cost Allocation (DCA). 6 Accordingly, the allowability of these indirect




2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503 (1990).
4
 SSA, POMS, DI 39506.201 and 202. POMS, DI 39506.200 B.4 provides, in part, that “Unliquidated
obligations represent obligations for which payment has not yet been made. Unpaid obligations are
considered unliquidated whether or not the goods or services have been received.”
5
    SSA, POMS, DI 39506.201 and 202.
6
 DCA is located within the Department of Health and Human Services (HHS). The Office of
Management and Budget designated HHS as the cognizant Federal agency for reviewing and negotiating
CAPs. The CAP is used by the component of State government responsible for the performance or
administration of a Federal program to charge indirect costs associated with the Federal program.
Page 3 - Nancy A. Berryhill

costs are subject to change following approval of the CAP and the methodologies
contained therein. We also found excessive funding authority existed during FY’s
before our audit period that needed to be rescinded. With regard to the CO-DDS’
general security controls, they do not have an intrusion detection system (IDS) that
covers the interior office space, and the security plan does not meet SSA’s
requirements as it lacks continuity of operations and disaster recovery plans. 7

INDIRECT COSTS

During our audit period, indirect costs were charged to SSA based on a proposed CAP
that has not been approved by DCA. 8 Specifically, $1,736,619 of the $2,698,902 of
indirect costs charged to SSA during our audit period were based on the State Fiscal
Year (SFY) 2006 proposed CAP that was submitted to DCA, but, as of the date of this
report, had not been approved. Although a State can claim reimbursement of indirect
costs based on a proposed CAP, the resulting indirect costs charged to a Federal
program must be retroactively adjusted if the CAP approved by DCA differs from the
proposed CAP. 9 Accordingly, the final allowability of indirect costs charged to SSA
during our audit period are subject to change following approval of the SFY 2006 and
2007 CAPs and the methodologies contained therein.

Historically, it takes longer than 2 years from the start of the Colorado Department of
Human Services’ (CDHS) SFY to the final approval of that SFY’s CAP, as shown in the
table on the following page. This occurs because CDHS does not submit its SFY CAP
to DCA for approval in a timely manner. For example, CDHS did not submit its SFY
2006 CAP to DCA for approval until 27 months after the start of the SFY. Furthermore,
a lengthy negotiation process between DCA and CDHS following the submission of the
CAP contributes additional time to the CAP approval process. For example, it took DCA
28 months to approve the SFY 2005 CAP once it was submitted by CDHS 8 months
after the start of the SFY.




7
    SSA, POMS, DI 39566.010.B.2.g and SSA, POMS, DI 39566.120.C.
8
  SFYs 2005 through 2007 CAPs are applicable to indirect costs charged to SSA during our audit period.
Indirect costs were charged based on the latest proposed CAP, which was SFY 2006 as allowed by
45 C.F.R. § 95.517.
9
    45 C.F.R. § 95.517.
Page 4 - Nancy A. Berryhill

             Number of Months Elapsing from the Beginning of the State FY
                    Until the Submission and Approval of the CAP
                                 Months Elapsing             Months Elapsing
        State FY CAP
                                Submission of CAP            Approval of CAP
            2007                  Not submitted                Not Approved
            2006                       27                     Not Approved 10
            2005                        8                           36
            2004                       19                           26
            2003                       16                           28
            2002                       23                           35
            2001                       20                           25
            2000                        9                           26

To determine the reasonableness of indirect costs charged to SSA, we reviewed
indirect costs for the period July through September 2006. These costs were claimed
based on the allocation methodologies outlined in the proposed SFY 2006 CAP.
Therefore, we compared the cost claimed during this period to the allocation
methodologies proposed in the SFY 2006 CAP. We found that these costs were
charged to SSA in accordance with the cost allocation methodologies outlined in the
proposed SFY 2006 CAP.

If the methodology used to allocate indirect costs to SSA as outlined in the SFY 2006
proposed CAP is subsequently approved by DCA in the final SFY 2006 and 2007 CAPs,
the indirect costs charged to SSA will remain allowable. However, there is a financial
risk to SSA when costs are charged to its programs based on proposed CAPs that have
not been approved by DCA. Specifically, it is possible that the negotiation process
between CDHS and DCA could result in the approval of a CAP containing a cost
allocation methodology that is different than that proposed. If that occurs, the costs
charged under a proposed CAP may be over or understated. Accordingly, we
recommend SSA work together with CDHS to ensure that indirect costs claimed during
the fourth quarter of FY 2005 and all of FY 2006 are in accordance with the applicable
CAPs once they are approved by DCA and collect any costs determined to be
unallowable.

EXCESS FUNDING AUTHORITY

Our review of ASAP account balances for our audit period (FYs 2005 and 2006), did not
identify any excess funding authority. However, we did find that excess funding
authorization existed in the CO-DDS’ FY 2002 through 2004 ASAP accounts in the
amount of $77,659. SSA establishes the CO-DDS’ funding authority for each account




10
     As of January 28, 2008, the SFY 2006 CAP has not been approved by DCA.
Page 5 - Nancy A. Berryhill

within the ASAP system. 11 Funds drawn through the ASAP system are restricted solely
for program use, and any unused funds are required to be returned to Treasury. 12 SSA
should reduce DDS funding authorizations when they are no longer needed to make
disability determinations. Rescinding excess funding authorization decreases the risk of
funds being spent on expenditures not related to the proper FY. The following chart
illustrates excess funding authority by FY and ASAP account number.

                                       ASAP                  EXCESS FUNDING
             FEDERAL FY
                                 ACCOUNT NUMBER                AUTHORITY
                  2002              0204CODI02                    $2,974
                  2003              0304CODI00                   $38,601
                  2003              0304CODI02                    $5,032
                  2004              0404CODI02                   $31,052
                 TOTAL                                           $77,659

The Denver Regional Office (RO) was aware that the State had drawn all the funds
needed for these FYs and that excess funding authorizations existed. However, the RO
stated that it would not reduce excess funding authorization until the CO-DDS submits
final SSA-4513s for these FYs, which it has not done. We recommend SSA instruct the
CO-DDS to submit a final SSA-4513 for FYs 2002 through 2004 and, upon receipt,
rescind the excess funding authorization totaling $77,659.

INTRUSION DETECTION SYSTEM

The CO-DDS did not have an IDS that covered its interior office space and all points of
entry. An IDS has not been installed because the CO-DDS believed its facility was
adequately protected by its key card access system and security guard. SSA
instructions state, “An IDS is required in all facilities unless determined unnecessary....”
For example, an IDS may not be necessary if the office is located in a building with
24 hour per day guard service and the guard has the ability to adequately monitor the
DDS facility. 13 However, the guard service at the CO-DDS did not offer 24 hour per day
protection. The security guard was in service only during CO-DDS office hours;
therefore, the security guard was not able to continually monitor the DDS’ space.
Without an IDS, there is an increased risk that unauthorized individuals could gain
access during nonworking hours to sensitive SSA information stored within the CO-DDS
office space. We recommend SSA instruct the CO-DDS to install an IDS that covers its
interior office space and all points of entry.



11
  A DDS may have more than one ASAP account identification number during each FY. For example,
DDS may have an ASAP account dedicated to information technology costs and another account
dedicated to all other administrative costs.
12
     42 U.S.C. § 421(f).
13
     SSA, POMS, DI 39566.010.B.2.g.
Page 6 - Nancy A. Berryhill

SECURITY PLAN

The CO-DDS security plan did not meet current SSA requirements. Specifically the
security plan did not contain continuity of operations (COOP) or disaster recovery plans
(DRP) to follow in the event of a disaster impacting CO-DDS operations. SSA
instructions state each DDS must establish and maintain a written DDS Security Plan
and that the security plan should consist of eight parts including the COOP and DRP. 14
The CO-DDS stated that they were unaware of the current security plan requirements
but will develop a COOP and DRP. An incomplete security plan increases the risk that
the CO-DDS may not perform critical operations after a disaster. We recommend SSA
work with the CO-DDS to ensure a security plan meeting SSA requirements is
completed timely.

CONCLUSION AND RECOMMENDATIONS
Other than the areas discussed in this report, the CO-DDS had effective controls over
the accounting and reporting of administrative costs. Furthermore, the costs it claimed
during our audit period were allowable, properly allocated, and funds were properly
drawn. However, the majority of the CO-DDS’ indirect costs charged to SSA during our
audit period were based on a CAP that has not been approved by DCA. Accordingly,
the allowability of these indirect costs are subject to change following approval of the
CAP and the methodologies contained therein. We also found excessive funding
authority existed during FYs before our audit period that needed to be rescinded.
Lastly, the CO-DDS did not have an IDS that covers the interior office space, and its
security plan did meet SSA’s requirements.

We recommend the SSA Regional Commissioner:

      1. Work together with CDHS to ensure that indirect costs claimed during the fourth
         quarter of FY 2005 and all of FY 2006 and are in accordance with the applicable
         CAPs once they are approved by DCA and collect any costs determined to be
         unallowable.

      2. Instruct the CO-DDS to submit a final SSA-4513 for FYs 2002 through 2004 and
         upon receipt rescind the excess funding authorization totaling $77,659.

      3. Instruct the CO-DDS to install an IDS that covers its interior office space and all
         points of entry.

      4. Work with the CO-DDS to ensure a security plan meeting SSA requirements is
         completed timely.




14
     SSA, POMS, DI 39566.120.B and C.
Page 7 - Nancy A. Berryhill

OTHER MATTERS
PERSONALLY IDENTIFIABLE INFORMATION

Disability claimants of the CO-DDS have personally identifiable information (PII)
routinely disclosed to vendors. The CO-DDS processes over 30,000 disability
determinations each FY. During the disability determination process, the CO-DDS
purchases services that include medical evidence (consultative examinations and
medical evidence of record) and claimant travel. Our review of medical and applicant
travel invoices revealed that these documents contained PII including name, address,
date of birth, Social Security number (SSN), and telephone number. Although we have
no reason to believe this information has been abused, this practice could potentially
result in the accidental disclosure of claimant’s PII.

Federal guidance dictates that agencies should reduce their current holdings of all PII to
the minimum necessary for the proper performance of a documented agency function. 15
Agencies must also review their use of SSNs in agency systems and programs to
identify instances in which collection or use of the SSN is superfluous. 16

On October 5, 2007, SSA’s Office of Disability Determinations informed ROs that DDSs
should review their processes to eliminate the use of the SSN on correspondence
where possible. The CO-DDS informed us that it has begun removing the SSNs from
documents where it is not absolutely necessary.

AGENCY COMMENTS
In commenting on our draft report, SSA and CDHS generally agreed with our
recommendations. See Appendices C and D, respectively, for the full text of SSA’s and
CDHS’ comments.




                                                      Patrick P. O’Carroll, Jr.




15
     Office of Management and Budget Memorandum M-07-16, Attachment 1 § B.1.a.
16
     Office of Management and Budget Memorandum M-07-16, Attachment 1 § B.2.a.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Colorado Department of Human Services’ Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act           Social Security Act
ASAP          Automated Standard Application for Payments
CAP           Cost Allocation Plan
CDHS          Colorado Department of Human Services
C.F.R.        Code of Federal Regulations
CO-DDS        Colorado Disability Determination Services
COOP          Continuity of Operations Plan
DCA           Division of Cost Allocation
DDS           Disability Determination Services
DI            Disability Insurance
DRP           Disaster Recovery Plan
FY            Fiscal Year
HHS           Department of Health and Human Services
IDS           Intrusion Detection System
PII           Personally Identifiable Information
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RO            Regional Office
SFY           State Fiscal Year
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
SSN           Social Security Number
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                       Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

 •   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
     Security Administration’s (SSA) Program Operations Manual System and other
     criteria relevant to administrative costs claimed by the Colorado Disability
     Determination Services (CO-DDS), and the draw down of SSA program
     appropriations.

 •   Interviewed staff at the Colorado Department of Human Services (CDHS) and the
     CO-DDS.

 •   Reviewed State policies and procedures related to personnel, medical services,
     and all other nonpersonnel costs.

 •   Evaluated and tested internal controls regarding accounting, financial reporting, and
     cash management activities.

 •   Reconciled State accounting records to the administrative costs reported by the
     CO-DDS on the State Agency Report of Obligations for SSA Disability Programs
     (SSA-4513) for Federal Fiscal Years (FY) 2005 through 2006.

 •   Examined specific administrative expenditures (personnel, medical services, and all
     other nonpersonnel costs) incurred and claimed by the CO-DDS for FYs 2005 and
     2006 on the SSA-4513. We used statistical sampling to select expenditures to test
     for support of the medical service and all other nonpersonnel costs as discussed in
     the following methodology section of this appendix.

 •   Examined the indirect costs claimed by CO-DDS for FYs 2005 through 2006 and
     the corresponding cost allocation plan.

 •   Compared the amount of SSA funds drawn for support of program operations to the
     expenditures reported on the SSA-4513.

 •   Determined whether selected funds from cancelled warrants were properly returned
     to SSA.




                                           B-1
 •   Determined whether unliquidated obligations were properly supported.

 •   Reviewed the CO-DDS’ general security controls.

 •   Reviewed Office of Management and Budget guidance related to safeguarding
     personally identifiable information.

We determined that the data provided by CDHS and CO-DDS used in our audit were
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed work at CDHS, CO-DDS, and the Kansas City, Missouri, Office of Audit.
We conducted fieldwork from March through September 2007. The audit was
conducted in accordance with generally accepted government auditing standards.

METHODOLOGY
SAMPLING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained a data extract of all costs and the associated invoices for
FYs 2005 through 2006 for use in statistical sampling. This was obtained from the
accounting systems used in the preparation of the SSA-4513.

Personnel Costs

We randomly selected 1 pay period, the month of April, in FY 2006 for review. We then
selected a random sample of 50 regular employees for review and testing of the payroll
records. For medical consultant costs we also selected the month of April, in
FY 2006, for review. We then selected all 25 medical consultants for review and testing
of the payroll records.

Medical Costs

We sampled 100 items (50 items from each of FY 2005 and 2006) using a stratified
random sample of medical costs based on the proportion of medical evidence of record
and consultative examination costs to the total medical costs claimed.




                                            B-2
Indirect Costs

We selected 1 quarter of FY 2006-the most recent quarter-to review indirect expenses.
We selected indirect costs pools that represented 79 percent of the indirect cost claimed
in the selected quarter. We ensured the selected pools were allocated in accordance
with the proposed State FY 2006 cost allocation plan. We determined the allocation
method was reasonable for the type of expense being allocated.

All Other Nonpersonnel Costs

We sampled 100 items (50 expenditures from FY 2005 and 50 from FY 2006) using a
stratified random sample. The random sample was based on the proportion of costs in
each of the cost categories to the total costs claimed.




                                          B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

Date:      March 28, 2008                                                         Refer To:

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Nancy Berryhill
           Denver Regional Commissioner

Subject:   Administrative Costs Claimed by the Colorado Disability Determination Services
           (A-07-07-17136)--REPLY


           Thank you for the opportunity to review the draft report of the 2007 audit of the Colorado
           Disability Determination Services (CO DDS). Essentially, the audit found that the CO DDS had
           effective controls over the accounting and reporting of administrative costs, and that costs
           claimed during the audit period were allowable and properly allocated and funds were properly
           drawn. However, there were four areas where recommendations have been made requiring SSA
           actions. Our assessment of these findings and recommendations, along with our response, is
           outlined below.

           Indirect Costs: At the time of the 2007 audit, the State Fiscal Year 2006 Cost Allocation Plan
           (CAP) had been submitted to HHS Division of Cost Accounting (DCA), but had not been
           approved. It was noted that the Colorado Department of Human Services (CDHS) has not
           submitted timely CAPs and the negotiation process between CDHS and DCA can be lengthy.
           We concur with this finding. In our meetings with DCA it has been noted that state agencies
           have no incentive to submit plans timely, and the process for deferring payment because the CAP
           is out of date is too cumbersome to be an effective tool. We appreciate the analysis you provided
           of the reasonableness of indirect costs charged in 2006. As DCA provides us with copies of the
           approved CAP (or the modifications to the new CAP), we will be alert to changes that can
           retroactively impact costs claimed. In addition, we continue to work with CDHS regarding the
           need for timely submission of the plan.

           Excess Funding Authority: Review of the Automated Standard Application for Payments
           (ASAP) account balances did not identify any excess funding authority but it did find excess
           account balances existed in ASAP for FY 2002 through FY 2005, totaling $77,659. We are
           aware that account balances may exist for extended periods after the close of the fiscal year, as
           the DDS has five years from the end of the fiscal year during which they may continue to submit
           expenses. Additionally, the regional office staff has no direct access to ASAP and cannot take
           action to rescind excess funding authorizations. However, as recommended, we did request CO
           DDS (and all DDSs in our region) to submit final SSA-4513s for FY 2002 through 2006 and final


                                                         C-1
allowance advices have been issued. Rescission of excess funding authorization has been
deferred to central office staff.

Intrusion Detection System (IDS): The CO DDS does not have an IDS that covers interior office
space and all points of entry. We have asked the DDS to correct this security issue and will be
working with them to obtain funding to cover the costs.

Security Plan: The CO DDS Security Plan did not meet current SSA requirements as it was
missing a Continuity of Operation Plan (COOP) and Disaster Recovery Plan (DRP). We have
provided the DDS with essential contact information and other suggestions on content for these
plans, and will continue to work with them to achieve timely development of these documents.

Although not one of the findings of the audit, the issue of Personally Identifiable Information
(PII) was raised. As this is an issue of great concern to this Agency, we have monitored all the
DDSs in this region with regard to their use of PII. The CO DDS has eliminated the use of PII in
all correspondence, except requests to medical sources or CE providers, where use of some PII
information remains necessary. We continue to work with our DDSs and as an agency to protect
PII and eliminate use of SSN or other such data where it is not required.

If you wish to discuss our comments, please contact me. Staff may contact Elaine Rametta,
Acting Deputy Director of the Center for Disability, at 303 844-4375 or via email at
Elaine.rametta@ssa.gov.



                            /s/
                      Nancy Berryhill

Cc:
Ruby Burrell
Candace Skurnik
Jeff Hild
Maurice Norwood
Candace Skurnik
Elaine Rametta




                                              C-2
                                  Appendix D

Colorado Department of Human Services’
Comments
D-1
D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division, (816) 936-5591

   Ken Bennett, Information Technology Specialist, (816) 936-5593

Acknowledgments

In addition to those named above:

   Doug Kelly, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-07-17136.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
